APPENDIX

APPENDIX
TABLE OF CONTENTS
Summary Order in the United States Court of Appeals for the Second
Circuit (March 15, 2021) ................................................................................. App. 1
Memorandum & Order in the United States District Court for the Eastern
District of New York (February 6, 2020) ........................................................ App. 5

i

20-756-cv
McCalla v. Liberty Life Assurance Company, et al.
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
1
2
3
4
5
6
7

RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007 IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING TO A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32
33
34
35

At a stated term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 15th day of March, two thousand twenty-one.
PRESENT:

ROBERT D. SACK,
SUSAN L. CARNEY,
Circuit Judges,
RACHEL P. KOVNER,
District Judge. *

_________________________________________
HENSLEY K. MCCALLA,
Plaintiff-Counter-Defendant-Appellant,
v.

No. 20-756-cv

LIBERTY LIFE ASSURANCE COMPANY OF BOSTON,
Defendant-Counter-Claimant-Appellee,
LINCOLN FINANCIAL GROUP,
Defendant-Appellee.
_________________________________________

Judge Rachel P. Kovner, of the United States District Court for the Eastern District of New York, sitting by
designation.

*

App. 1

1
2
3
4
5
6
7

FOR PLAINTIFF-APPELLANT:

Michael Confusione, Hegge &
Confusione, LLC, Mullica Hill, NJ.

FOR DEFENDANTS-APPELLEES:

Byrne J. Decker, Ogletree, Deakins, Nash,
Smoak & Stewart, P.C., Portland, ME.

8

New York (Azrack, J.).

Appeal from an order of the United States District Court for the Eastern District of

UPON DUE CONSIDERATION WHEREOF, IT IS HEREBY ORDERED,

9
10

ADJUDGED, AND DECREED that the order entered on February 6, 2020, is

11

AFFIRMED.
This appeal arises from an attempt to enforce a settlement agreement entered into by

12
13

the parties. Plaintiff-Appellant Hensley K. McCalla (“McCalla”) argues (1) that the

14

District Court lacked jurisdiction over the motion to enforce the settlement filed by

15

Defendants-Appellees Liberty Mutual Life Assurance Corp. and Lincoln Financial Group,

16

and (2) that, even if the District Court had jurisdiction, it erred by granting that motion. We

17

assume the parties’ familiarity with the underlying facts, procedural history, and arguments

18

on appeal, to which we refer only as necessary to explain our decision to affirm.
“We review de novo a district court’s legal determination regarding its own subject

19
20

matter jurisdiction.” Hendrickson v. United States, 791 F.3d 354, 358 (2d Cir. 2015). 1 We also

21

review de novo a district court’s legal conclusions regarding the “interpretation of the terms of

22

a settlement agreement and its interpretation of state law.” Omega Eng’g, Inc. v. Omega, S.A.,

23

432 F.3d 437, 443 (2d Cir. 2005). We evaluate “a district court’s factual conclusions related

24

to a settlement agreement, such as whether an agreement exists or whether a party assented

25

to the agreement,” for clear error. Id.
As to the District Court’s jurisdiction over the motion for settlement, McCalla argues

26
27

that the District Court surrendered jurisdiction over the case when, in September 2018, it

28

entered a text order granting the parties’ “motion to continue” in light of the pending

Unless otherwise noted, in quoting caselaw this Order omits all alterations, citations, footnotes, and internal
quotation marks.
1

2

App. 2

1

settlement “to the extent that this case is closed with leave to reopen on ten (10) days notice

2

by no later than 10/26/2018.” App’x 5. He contends on this basis that the court had no

3

jurisdiction to grant the motion to enforce the settlement.

4

No order terminating the case or judgment of dismissal was entered on October 26,

5

2018, however, or at any time before Defendants’ motion to enforce the settlement was filed

6

on December 21, 2018. Indeed, on November 1 the court docketed a “Motion to withdraw

7

as attorney to stay proceedings and to file supporting affidavit under seal” filed by McCalla’s

8

counsel, Louis Simonetti. On December 3, the District Court denied Simonetti’s motion to

9

withdraw. On December 21, it docketed Liberty Life’s motion to enforce the settlement.

10

And, in contrast, on July 25, 2019, when the District Court ordered the first case

11

consolidated with the second case filed by McCalla and removed by Liberty, the second case

12

docket was marked “Civil Case Terminated”—an entry that the docket for the first case did

13

not show until the motion to enforce the settlement was granted and the case was dismissed

14

on February 6, 2020. The docket of McCalla’s first action also reflects that the Clerk was

15

then directed, and not before, to “mark this case closed.” App’x 7. Similarly, in February

16

2020, upon dismissal of the consolidated cases and in conjunction with the entry of the

17

Court’s order “dismissing case,” the Court entered a notice reading “Civil Case Terminated.”

18

Id. It was on the basis of that order and termination that the notice of appeal was filed.

19

In these circumstances, we conclude that the District Court did not dismiss the first

20

McCalla case in either September or October 2018. Cf. Leftridge v. Connecticut State Trooper

21

Officer #1283, 640 F.3d 62 (2d Cir. 2011). Accordingly, these proceedings to enforce a

22

settlement are not subject to the rule articulated in Kokkonen v. Guardian Life Ins. Co., 511 U.S.

23

375 (1994), that a court’s written judgment must expressly retain jurisdiction over settlement

24

enforcement to support its consideration of a post-dismissal motion to enforce. The District

25

Court here therefore had jurisdiction to grant the motion to enforce the settlement that was

26

filed in the first action in December 2018. And, to the extent that any jurisdictional

27

ambiguity lingers, the parties’ diversity and the amount in controversy further support the

28

court’s exercise of jurisdiction in its decision on the motion. See NCI Int’l, Inc. v. Mustafa,

29

613 Fed. App’x 84 (2d Cir. 2015).
3

App. 3

1

Next, for substantially the reasons stated in the District Court’s memorandum and

2

order, we also conclude that the settlement agreement between the parties was enforceable

3

under both New York and federal law. Email exchanges between counsel for the parties

4

demonstrate that McCalla’s former attorney had authority to settle McCalla’s claims.

5

See Tractebel Energy Mktg., Inc. v. AEP Power Mktg., Inc., 487 F.3d 89, 95 (2d Cir. 2007);

6

Adjustrite Sys., Inc. v. GAB Bus. Servs., Inc., 145 F.3d 543, 548 (2d Cir. 1998) (“[P]reliminary

7

agreements can create binding obligations.”). The District Court’s factual findings, which we

8

reverse only for clear error, demonstrated to this Court as well that the parties’ settlement

9

agreement is binding. See Winston v. Mediafare Entm’t Corp., 777 F.2d 78, 80 (2d Cir. 1985).

10

Like the District Court, we are particularly persuaded by the record’s reflection that McCalla

11

did not contest any of the settlement’s terms other than the amount, an amount to which the

12

documents indisputably show that counsel for both parties agreed.

13

McCalla argues that we should reverse the District Court’s order because it ruled

14

without conducting an evidentiary hearing on the question whether McCalla authorized his

15

attorney to settle his claims. He did not make this argument, however, during the

16

proceedings before the District Court. We therefore treat it as waived. See Harrison v. Republic

17

of Sudan, 838 F.3d 86, 96 (2d Cir. 2016).
* * *

18
19

We have considered all of the arguments raised by McCalla on appeal and find in

20

them no basis for reversal. For the reasons stated above, the District Court’s order is

21

AFFIRMED.

22

FOR THE COURT:

23

Catherine O’Hagan Wolfe, Clerk of Court

4

App. 4

Case 2:18-cv-01971-JMA-SIL Document 41 Filed 02/06/20 Page 1 of 6 PageID #: 357

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
--------------------------------------------------------------X
HENSLEY K. MCCALLA,
Plaintiff,

For Online Publication Only

MEMORANDUM & ORDER
18-CV-1971 (JMA) (SIL)

-againstLIBERTY LIFE ASSURANCE COMPANY
OF BOSTON,
Defendant.
---------------------------------------------------------------X
JOAN M. AZRACK, United States District Judge:

FILED
CLERK

2/6/2020 3:46 pm
U.S. DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
LONG ISLAND OFFICE

On February 4, 2020, the undersigned held a conference (the “Conference”) and granted
the Motion for Settlement, (ECF No. 21), on the record. (ECF No. 40.) The following Order
recites the facts of this case and expands on the oral ruling.
BACKGROUND
A. Procedural Posture of the Case
Plaintiff Hensley K. McCalla (“Plaintiff”), represented by counsel, commenced this action
in the New York State Supreme Court, County of Nassau, asserting a claim for disability benefits
against the defendant Liberty Life Assurance Company of Boston (“Defendant”). (ECF No. 1.)
Defendant asserted that the claims were preempted by ERISA, 29 U.S.C. §§ 1001, et seq., and
removed the case to Federal Court on April 2, 2018. (Id.) It was assigned to District Court Judge
Sandra J. Feuerstein. Plaintiff filed an amended complaint and Defendant responded with an
answer and counterclaims, alleging an overpayment of disability benefits. (ECF Nos. 10, 11.)
At a status conference before Judge Feuerstein on July 23, 3018, the parties discussed
discovery deadlines and a date by which to serve dispositive motions.

(ECF No. 16.)

Approximately two months later, defense counsel wrote jointly with plaintiff’s counsel to notify

App. 5

Case 2:18-cv-01971-JMA-SIL Document 41 Filed 02/06/20 Page 2 of 6 PageID #: 358

the Court that the parties “have reached an agreement in principle,” and to request that the Court
vacate all deadlines pending submission of the dismissal paperwork. (ECF No. 17.)
The Court granted this request and marked the case closed. (Electronic Order, 9/27/18.)
On November 1, 2018, plaintiff’s counsel moved to withdraw as counsel for Plaintiff, citing
irreconcilable differences, a request which Judge Feuerstein denied.

(ECF No. 17.)

On

December 21, 2018, Defendant filed a fully briefed “Motion for Settlement,” asserting that the
parties had entered into a binding settlement agreement and asking the Court to enforce that
settlement. (ECF Nos. 21–26.) The filing included a Memorandum in Opposition filed by
plaintiff’s counsel. (ECF No. 24.)
While the Motion for Settlement was pending, Plaintiff, proceeding pro- se,
- filed an
identical action in New York State Supreme Court, Nassau County, which Defendant again
removed to Federal Court and then requested it be consolidated with the instant action. (See ECF
Nos. 29, 30.) Judge Feuerstein consolidated the second-filed case (Docket 19-cv-4180) with the
instant case, which she reopened. (Electronic Order, 7/25/2019.)
A few weeks later, plaintiff’s counsel moved to be relieved as counsel for the second time,
including a signed stipulation from Plaintiff indicating that he would proceed pro se. (ECF Nos.
36, 37.) Judge Feuerstein granted this request and scheduled a conference. (Electronic Order
8/21/2019.) Plaintiff appeared pro se before Judge Feuerstein on October 8, 2019 and the case
was reassigned to the undersigned on October 15, 2019. (ECF No. 39.) The undersigned
reviewed the pending motion papers and scheduled a conference for February 4, 2020 to address
the requested relief, at which time the Court granted Defendant’s Motion for Settlement. (ECF
No. 40.)

2
App. 6

Case 2:18-cv-01971-JMA-SIL Document 41 Filed 02/06/20 Page 3 of 6 PageID #: 359

B. Settlement Discussions and Agreement
According to the papers submitted with the Motion for Settlement, plaintiff’s counsel
made an initial settlement offer to defense counsel via email on June 28, 2018. (Sibbernsen Decl.,
Ex. A., ECF No. 23.) He then made three revised settlement offers on July 20, 2018, September
13, 2018, and September 14, 2018. (Sibbernsen Decl., Exs. A, B, C.) In each email he stated,
“[a]fter further discussion with our client, we have revised our settlement offer” and noted that the
parties had agreed that the settlement would also waive Defendant’s claims against Plaintiff. 1
(Id.) Following the September 14, 2018 offer, defense counsel countered, stating “[i]n exchange
for a release of all claims and an agreement to usual and customary terms of a settlement agreement
(including confidentiality and non-disparagement), my client offers to waive its counterclaim
against Mr. McCalla (approx. $35K) and pay Mr. McCalla an additional $9,000.” (Sibbernsen
Decl., Ex. D.) Later that same day, plaintiff’s counsel reduced the demand amount. (Id.) Three
days later, on September 17, 2018, plaintiff’s counsel stated, “Mr. McCalla will accept $12,500.00.
This is our best and final offer.” (Id.)
The next morning, defense counsel indicated that his client would accept the demand of
$12,500.00 and waive its counterclaims in exchange for a release of all claims and agreement to
usual and customary terms of a settlement agreement. (Id.) He indicated that he would draft a
settlement agreement, asked to whom the settlement check should be made out, and requested an
executed Form W-9 for plaintiff’s counsel’s firm. (Id.) An hour and a half later, plaintiff’s
counsel responded with the signed W-9 and stated that the settlement check should be payable to
his firm, as attorney. (Id.) Approximately a week later, defense counsel asked if he could submit

1

The Court notes that the July 20, 2018 email did not include the word “further.” (Sibbernen Decl., Ex. A.)

3
App. 7

Case 2:18-cv-01971-JMA-SIL Document 41 Filed 02/06/20 Page 4 of 6 PageID #: 360

the letter notifying the Court of the settlement, to which plaintiff’s counsel responded, “Letter is
fine.” (Id.)
Over the next few weeks, defense counsel asked clarifying questions about the preferred
designation for the settlement check and sent a settlement agreement. (Sibbernsen Decl., Ex. E.)
He followed up with plaintiff’s counsel about the status of the settlement agreement on October
19, 2018, and plaintiff’s counsel responded, “I expect my client in next week.” (Id.)
According to subsequent email exchanges, plaintiff’s counsel then informed defense
counsel that Mr. McCalla intended to back out of the settlement agreement and defense counsel
stated, by email, Defendant’s position that the parties entered into a binding settlement agreement
reflected in their email exchanges. (Sibbernsen Decl., Ex. F.) Plaintiff’s counsel contended it
was not a binding settlement agreement because the emails stated, “FOR SETTLEMENT
PURPOSES ONLY WITHOUT PREJUDICE – NOT TO BE USED IN LITIGATION” and the
letter to the Court indicated that the settlement had been reached only “in principle.” (Id.)
DISCUSSION
The Court has considered the parties’ motion papers together with the statements made on
the record at the Conference. 2 The Court first addresses counsel’s authority to enter into the
settlement agreement. “[B]ecause of the unique nature of the attorney-client relationship, and
consistent with the public policy favoring settlements, we presume that an attorney-of-record who
enters into a settlement agreement, purportedly on behalf of a client, had authority to do so. In
accordance with that presumption, any party challenging an attorney’s authority to settle the case

The Court rejects Plaintiff’s argument that it lacks jurisdiction over the Motion for Settlement. (See ECF No. 24
at 10–12.) The enforceability of the settlement is properly before the Court in the instant action, which was removed
to this Court on April 2, 2018. Moreover, even if it were not, the Court would have jurisdiction to address the
enforceability of the settlement as part of the newly-filed identical case, 19-cv-4180-SJF-SIL, which already has been
consolidated into the instant action.
2

4
App. 8

Case 2:18-cv-01971-JMA-SIL Document 41 Filed 02/06/20 Page 5 of 6 PageID #: 361

. . . bears the burden of proving by affirmative evidence that the attorney lacked authority.”
Pereira v. Sonia Holdings (In re Artha Mgmt.), 91 F.3d 326, 329 (2d Cir. 1996).
In its opening brief, Defendant argued that plaintiff’s counsel had authority to settle on
behalf of Plaintiff. (ECF No. 22.) Plaintiff was still represented by counsel when he opposed
the motion and his opposition papers did not contest this argument. (ECF No. 24.) Accordingly,
any such claim is waived. However, at the Conference, Plaintiff claimed for the first time that his
counsel did not have his authority to settle for $12,500.00. Even if this claim was not waived by
failing to raise it in his motion papers, the Court does not find Plaintiff’s statement credible,
particularly given the email exchanges between counsel and the lack of opposition to Defendant’s
actual authority argument in the papers submitted to the Court.
Next, to determine if the settlement agreement was binding, “[t]he court is to consider
(1) whether there has been an express reservation of the right not to be bound in the absence of a
writing; (2) whether there has been partial performance of the contract; (3) whether all of the terms
of the alleged contract have been agreed upon; and (4) whether the agreement at issue is the type
of contract that is usually committed to writing.” Winston v. Mediafare Entm’t Corp., 777 F.2d
78, 80 (2d Cir. 1985). No single factor is dispositive. Id. Based on these factors, the Court
finds that the parties entered into a binding settlement agreement. The Court is particularly
persuaded by the case Pruiett v. City of New York, 2012 U.S. Dist. LEXIS 103793 (S.D.N.Y. May
31, 2012), which presents a very similar set of facts. The arguments raised by Plaintiff in his
opposition papers, or on the record at the Conference, do not persuade the Court otherwise.
Notably, at the Conference, Plaintiff did not contest any terms of the settlement other than the
settlement amount—his only defense to the Motion for Settlement was that he did not want to
settle the case for $12,500.00, which was clearly agreed to in the email exchanges.

5
App. 9

Case 2:18-cv-01971-JMA-SIL Document 41 Filed 02/06/20 Page 6 of 6 PageID #: 362

Accordingly, the Court GRANTS Defendant’s Motion for Settlement, (ECF No. 21), and
finds that the parties agreed to settle this action for a sum of $12,500.00 to be paid by Defendant
to Plaintiff which will release all claims and counterclaims in this consolidated action. Defendant
shall issue a check made payable to Plaintiff for the full settlement amount by March 5, 2020 (30
days from the date of the conference), at which time the releases shall become effective.
CONCLUSION
As this matter has settled, the case is dismissed. The Clerk of the Court is directed to mail
a copy of this order to Plaintiff at his last known address and to mark this case closed.
SO ORDERED.

/s/ (JMA)
Joan M. Azrack
United States District Judge

Dated: February 6, 2020
Central Islip, New York

6
App. 10

